EXHIBIT H

Madej v. Maiden, 951 F.3d 364 (2020)

951 F.3d 364
United States Court of Appeals, Sixth Circuit.

[1]

Cynthia MADEJ; Robert Madej,
Plaintiffs-Appellants,
v.
Jeff MAIDEN, Athens County Engineer,
Defendant-Appellee.
No. 18-4132
|
Argued: October 22, 2019
|
Decided and Filed: February 24, 2020

Injunction
Injunction

Nature of remedy in general
Actual success on merits

An injunction is a remedy, not a claim, and if
plaintiffs cannot show actual success on their
claims, they cannot obtain a permanent
injunction.

[2]

Synopsis
Background: Homeowner brought action against county
engineer in state court, asserting disability discrimination
claims under Americans with Disabilities Act (ADA) and
Fair Housing Amendments Act, based on allegations that
use of asphalt on road near her home, in chip-seal process
for planned paving, would aggravate her multiple
chemical sensitivity. After removal, the United States
District Court for the Southern District of Ohio, Edmund
A. Sargus, Chief Judge, 2018 WL 5045768, granted
summary judgment to engineer. Homeowner appealed.

Evidence Physical condition
Evidence Matters involving scientific or other
special knowledge in general
Evidence Medical testimony
The opinion testimony of a doctor, whether as
an expert or as a treating physician, generally
must pass muster under the federal evidence rule
requiring a party offering expert testimony to
demonstrate relevance and reliability. Fed. R.
Evid. 702.

[3]

Holdings: The Court of Appeals, Murphy, Circuit Judge,
held that:

Evidence Matters involving scientific or other
special knowledge in general
Evidence Necessity and sufficiency

[1]

medical expert’s diagnosis of multiple chemical
sensitivity was not sufficiently reliable, and

A district court must perform a gatekeeping role
to ensure that expert testimony offered by a
party is relevant and reliable. Fed. R. Evid. 702.

[2]

medical expert testimony from primary-care physician
was not sufficiently reliable.
Affirmed.
Procedural Posture(s): On Appeal; Motion for Summary
Judgment; Motion to Exclude Expert Report or
Testimony.

West Headnotes (13)

[4]

Federal Courts
witnesses

Expert evidence and

A district court’s conclusion regarding whether
expert testimony offered by a party is relevant
and reliable, as required for admissibility, is
reviewed for an abuse of discretion. Fed. R.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Madej v. Maiden, 951 F.3d 364 (2020)

Evid. 702.
[8]

[5]

[6]

Cause

The issue with regard to expert testimony, as
element for admissibility, is not the
qualifications of the witness in the abstract, but
whether those qualifications provide a
foundation for the witness to answer a specific
question. Fed. R. Evid. 702.

Assuming that homeowner’s claim against
county engineer involved provision of services
or facilities in connection with a dwelling, as
required
for
reasonable-accommodation
disability discrimination claim under Fair
Housing Amendments Act, the question of
relevancy, as requirement for admission of
homeowner’s
proffered
expert
medical
testimony, was a question of causation, i.e.,
whether use of asphalt on road near home, in
chip-seal process for planned paving, would
create an unequal opportunity for homeowner to
enjoy her home by aggravating her alleged
medical condition of multiple chemical
sensitivity, so that her proposed alternatives
would be necessary.
42 U.S.C.A. §

Evidence Matters involving scientific or other
special knowledge in general

3604(f)(2)(A),

Evidence

Competency of Experts

Whether a proffered expert opinion relates to an
issue in the case or helps a jury answer a
specific question, so that the opinion is relevant,
as element for admissibility, depends on the
claims before the court, and thus, a court should
consider the elements that a plaintiff must prove.
Fed. R. Evid. 702.

[7]

Evidence

Civil Rights Discrimination by reason of
handicap, disability, or illness
A court must read the relational phrase “in
connection with [a] dwelling,” in the provision
of the Fair Housing Amendments Act barring
disability discrimination in the provision of
services or facilities in connection with a
dwelling, as adopting the limiting principle most
consistent with the structure of the statute.
42
U.S.C.A. § 3604(f)(2)(A).

[9]

Evidence

(f)(3)(B); Fed. R. Evid. 702.

Cause

Assuming
that
homeowner’s
reasonable-accommodation
public-services
disability discrimination claim was cognizable
under the ADA, the question of relevancy, as
requirement for admission of homeowner’s
proffered medical expert testimony, was a
question of causation, i.e., whether use of
asphalt on road near home, in chip-seal process
for planned paving, would deny homeowner’s
access to road by aggravating her alleged
medical condition of multiple chemical
sensitivity, so that her proposed alternatives
would be necessary. Americans with Disabilities
Act of 1990 § 202,
42 U.S.C.A. § 12132;
Fed. R. Evid. 702;
28 C.F.R. §
35.130(b)(7)(i).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Madej v. Maiden, 951 F.3d 364 (2020)

[10]

Evidence Necessity and sufficiency
Federal Courts Expert evidence and
witnesses
District courts have considerable leeway in
deciding in a particular case how to go about
determining whether particular proffered expert
testimony is reliable, as element for
admissibility, and thus, the Court of Appeals
will review that type of decision only for an
abuse of discretion. Fed. R. Evid. 702.

[11]

Evidence

Medical testimony

Medical expert’s diagnosis of multiple chemical
sensitivity was not sufficiently reliable to be
admitted as expert evidence for causation
element
of
homeowner’s
disability
discrimination claims against county engineer
under the ADA and the Fair Housing
Amendments Act, alleging that use of asphalt on
road near her home, in chipped-seal process for
planned paving, would aggravate her multiple
chemical sensitivity; a mountain of precedent,
mostly consisting of cases more than ten years
old, had found that multiple chemical sensitivity
was a controversial diagnosis that was
unsupported by sound scientific reasoning or
methodology, homeowner did not show that
more recent scientific advancements had led the
scientific community to come to accept the
diagnosis, and the diagnosis remained
unrecognized by American Medical Association
and unlisted in World Health Organization’s
International Classification of Diseases.
42
U.S.C.A. § 3604(f)(3)(B); Americans with
Disabilities Act of 1990 § 202,
42 U.S.C.A.
§ 12132;
28 C.F.R. § 35.130(b)(7)(i); Fed. R.
Evid. 702.

When a doctor’s opinion strays from the
doctor’s professional experience, the opinion is
less reliable, and more likely to be excluded as
expert evidence. Fed. R. Evid. 702.

[13]

Evidence

Medical testimony

Homeowner’s
proffered
medical
expert
testimony from her primary-care physician was
not sufficiently reliable, as required for
admission of expert testimony, with respect to
causation element of disability discrimination
claims against county engineer under the ADA
and the Fair Housing Amendments Act, alleging
that use of asphalt on road near her home, in
chipped-seal process for planned paving, would
aggravate her multiple chemical sensitivity;
physician conceded that she lacked skill in
diagnosing multiple chemical sensitivity and
that she had not tested homeowner for such
sensitivity, and her opinion rested on her
apparent misunderstanding that another medical
expert, who was an environmental-medicine
specialist, had diagnosed multiple chemical
sensitivity.
42 U.S.C.A. § 3604(f)(3)(B);
Americans with Disabilities Act of 1990 § 202,
42 U.S.C.A. § 12132;
28 C.F.R. §
35.130(b)(7)(i); Fed. R. Evid. 702.

*366 Appeal from the United States District Court for the
Southern District of Ohio at Columbus. No.
2:16-cv-00658—Edmund A. Sargus, Jr., District Judge.
Attorneys and Law Firms

[12]

Evidence

Necessity and sufficiency

ARGUED: David T. Ball, ROSENBERG & BALL CO.,
LPA, Granville, Ohio, for Appellants. Molly Gwin,
ISAAC, WILES, BURKHOLDER & TEETOR, LLC,
Columbus, Ohio, for Appellee. ON BRIEF: David T.
Ball, ROSENBERG & BALL CO., LPA, Granville, Ohio,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Madej v. Maiden, 951 F.3d 364 (2020)

Fazeel S. Khan, HAYNES, KESSLER, MYERS &
POSTALAKIS, INC., Worthington, Ohio, for Appellants.
Molly Gwin, Maribeth Meluch, ISAAC, WILES,
BURKHOLDER & TEETOR, LLC, Columbus, Ohio, for
Appellee.
Donald
Horak,
DIOCESE
OF
STEUBENVILLE, Athens, Ohio, for Amici Curiae.
Before: GUY, BUSH, and MURPHY, Circuit Judges.

OPINION
MURPHY, Circuit Judge.
*367 Cynthia Madej is very ill. On top of her other
ailments, her doctors say she has “multiple chemical
sensitivity.” She thus goes to great lengths to avoid
everyday materials that she believes will trigger harmful
reactions like burning eyes and throat, dizziness, or
nausea. This suit arose because Ms. Madej fears that the
use of asphalt on a road near her home will cause more
harm still. She and her husband sued the county engineer
to stop the roadwork, alleging violations of the Fair
Housing Amendments Act of 1988 and the Americans
with Disabilities Act of 1990. Applying the well-known
rules from
Daubert v. Merrell Dow Pharmaceuticals,
Inc., 509 U.S. 579, 113 S.Ct. 2786, 125 L.Ed.2d 469
(1993), the district court excluded the opinions of the
Madejs’ experts that the asphalt would injure Ms. Madej.
Without expert causation evidence, the court added, the
Madejs could not withstand summary judgment. As far as
we are aware, “no district court has ever found a
diagnosis of multiple chemical sensitivity ... to be
sufficiently reliable to pass muster under
Daubert.”
Gabbard v. Linn-Benton Hous. Auth., 219 F. Supp. 2d
1130, 1134 (D. Or. 2002), aff’d sub nom. Wroncy v. Or.
Dep’t of Transp., 94 F. App’x 559 (9th Cir. 2004). We
thus see no abuse of discretion in the district court’s
evidentiary ruling and affirm its judgment for the county
engineer.

I.
Cynthia Madej has suffered through decades of
debilitating maladies, including chronic fatigue syndrome,
fibromyalgia, anemia, and severe vitamin deficiencies.
Since 1997, the Social Security Administration has found
her completely disabled and entitled to benefits. Two of
her doctors, Barbara Singer (a primary-care physician)
and Allan Lieberman (an environmental-medicine
specialist), have opined that she also suffers from multiple
chemical sensitivity, which is not a disease recognized by
the World Health Organization or the American Medical
Association. Dr. Lieberman takes the view that the phrase
“multiple chemical sensitivity” (like the word
“headache”) is more description than diagnosis because it
conveys that many chemicals negatively affect Ms.
Madej’s health. Ms. Madej says that she has reacted to
countless substances, including fertilizers, pesticides,
fragrances, cleaning products, glues, paint, newsprint,
polyurethane, varnish, vinyl, gas, oil, propane, rubber,
plastics, carpet, wood, and new clothes. Her reactions
have included burning eyes and throat, chest tightness,
shortness of breath, chronic headaches, nausea, and
dizziness.
Ms. Madej takes extraordinary measures to avoid the
common materials that *368 trigger these harmful
reactions. She is effectively homebound, leaving her
home maybe a couple of times per year, largely for
medical appointments. She also sleeps in a structure on
her property that is lined with glass (floors, walls, and
ceiling) to avoid the wood in her house. She stays warm
in this glass structure over the winter by using a string of
incandescent light bulbs (supplemented by glass bottles
filled with hot filtered water on extremely cold nights).
In 2010, given her sensitivities, Ms. Madej and her
husband, Robert, moved to a home in rural Athens
County, Ohio. Located some 280 feet off of Dutch Creek
Road, their home was built for another individual with
chemical sensitivities. After moving there, the Madejs
gave a letter from Dr. Lieberman to the existing Athens
County Engineer asking for advance notice of planned
chemical sprayings within three blocks of their home. The
letter stated that “[e]xposure to even small doses of”
certain substances, including “herb[i]cides, pesticides,
fertilizers, oil, road tar, asphalt, diesel exhaust and other
petroleum and roadway materials, could create a
life-threatening situation [for Ms. Madej].”
A new county engineer, Jeff Maiden, took office in
January 2013. In 2014, when Maiden’s office paved a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Madej v. Maiden, 951 F.3d 364 (2020)

nearby road, Ms. Madej reportedly experienced
headaches, throat and eye burning, and chest tightness for
months. So, beginning in the spring of 2015, her husband
repeatedly called the office to remind Maiden’s staff of
his wife’s poor health. Each time, employees responded
that the office had no maintenance plans for Dutch Creek
Road.
In March 2015, however, dozens of residents had
petitioned the county commissioners to improve this
pothole-ridden road. Maiden had also received more
complaints about the dust on Dutch Creek Road than the
dust on any other road in the county. When cars drove on
the road in the summertime, billowing dust turned nearby
foliage brown. One resident even vandalized a road sign
to read “Dust Creek Road” rather than “Dutch Creek
Road.”
To address these complaints, Maiden decided to “chip
seal” the road. The chip-seal process helps maintain rural
roads and prevent dust. Workers spray a thin layer of
heated asphalt liquid on the surface, place small stones or
“chips” on top of the liquid, compress the chips into the
liquid, and sweep excess chips off the roadway.
Maiden’s staff recalled Ms. Madej having asphalt
allergies. In late August 2015, therefore, an employee
informed the Madejs that the office planned to start work
on the road the next day. The Madejs objected. Maiden
agreed to delay things until after a public meeting at
which the Madejs could air their concerns to the
community. That same day, though, workers patched two
smaller areas of the road, located a half mile from the
Madejs’ home. Even this work reportedly left Ms. Madej
feeling ill.
On September 10, the public meeting generated a
standing-room-only crowd. Maiden discussed the
roadwork while Mr. Madej explained his wife’s poor
health.
Neighbors
proposed
various
accommodations—such as paying for the Madejs’ hotel
or helping them stay at a campsite during the work—to no
avail. Seeing no room for compromise, Maiden chose to
start the roadwork on September 14. The parties dispute
whether Mr. Madej had told Maiden at or before this
meeting about his research into fixing the road with
non-asphalt alternatives to chip seal. But we will assume
that he did so given the case’s procedural posture.

mile of the Madejs’ home. The Madejs later amended
their complaint to assert claims under the Fair Housing
Amendments Act of 1988 and the Americans with
Disabilities Act of 1990. Maiden removed the suit to
federal court. He then moved to exclude the opinions of
the Madejs’ three doctors: her two treating doctors (Drs.
Singer and Lieberman) and an expert (Dr. John Molot).
Maiden also sought summary judgment on all claims.
The district court initially held that the opinions of the
Madejs’ doctors did not satisfy the reliability
requirements of Federal Rule of Evidence 702. Madej v.
Maiden, No. 2:16-cv-658, 2018 WL 5045768, at *4–14
(S.D. Ohio Oct. 17, 2018). Invoking the causation rules
from toxic-tort cases, the court noted that the Madejs must
show both general causation (that the asphalt in chip seal
can cause the type of injury that a plaintiff alleges) and
specific causation (that this asphalt will, in fact, cause
Cynthia Madej’s injury). Id. at *4–5. The court found that
the doctors did not offer reliable opinions on specific
causation: that chip seal would harm Ms. Madej. Id. at
*5–14.
The court next held that the Madejs’ lack of expert
causation evidence warranted summary judgment for
Maiden. Id. at *14–16. It noted that the Fair Housing
Amendments Act requires a reasonable accommodation
for a person with a handicap when that accommodation is
necessary to give the person an equal opportunity to enjoy
a dwelling. Id. at *15. Finding that this “necessary”
element contains a causation test, the court reasoned that
the Madejs could not show that chip seal would harm Ms.
Madej and so could not show any need for alternatives.
Id. The court rejected the Madejs’ claim under the
Americans with Disabilities Act for an identical reason.
Id.
[1]

The Madejs now appeal the district court’s evidentiary
ruling and its rejection of their federal claims. They have
abandoned their state-law claims. And while they
separately challenge the court’s rejection of what they call
their “injunction” count, an injunction is a remedy, not a
claim. If they cannot show “actual success” on their
claims, they cannot obtain a permanent injunction.
Jolivette v. Husted, 694 F.3d 760, 765 (6th Cir. 2012)
(citation omitted).

On September 15, the Madejs brought a tort suit against
Maiden in his official capacity. *369 A state court granted
preliminary relief halting any chip-seal work within a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Madej v. Maiden, 951 F.3d 364 (2020)

II.
[2] [3] [4]

The opinion testimony of a doctor (whether an
expert or a treating physician) generally must pass muster
under Rule 702. See
Gass v. Marriott Hotel Servs.,
Inc., 558 F.3d 419, 426 (6th Cir. 2009). Before a “witness
who is qualified as an expert by knowledge, skill,
experience, training, or education may” testify, the party
who seeks to call the witness must prove: (1) that “the
expert’s scientific, technical, or other specialized
knowledge will help the trier of fact to understand the
evidence or to determine a fact in issue”; (2) that “the
testimony is based on sufficient facts or data”; (3) that
“the testimony is the product of reliable principles and
methods”; and (4) that “the expert has reliably applied the
principles and methods to the facts of the case.” Fed. R.
Evid. 702(a)–(d). These factors, in short, require
“scientific testimony” to be both “relevant” and
“reliable.”
Kumho Tire Co., Ltd. v. Carmichael, 526
U.S. 137, 147, 119 S.Ct. 1167, 143 L.Ed.2d 238 (1999)
(quoting
Daubert v. Merrell Dow Pharms., Inc., 509
U.S. 579, 589, 113 S.Ct. 2786, 125 L.Ed.2d 469 (1993)).
A district court must perform a “gatekeeping role” to
ensure that the testimony meets those mandates,
Daubert, 509 U.S. at 597, 113 S.Ct. 2786, and we
*370 review its conclusion for an abuse of discretion,
Kumho Tire, 526 U.S. at 142, 158, 119 S.Ct. 1167.
The Madejs assert that the district court committed both
relevancy and reliability errors when undertaking this
gatekeeping role. As for relevancy, they argue that the
district court mistakenly required them to meet
common-law tort standards that do not apply to their
federal statutory claims. As for reliability, they argue that
their doctors had a sufficient factual basis for opining that
the chip seal would harm Ms. Madej. Neither argument
warrants reversal.

relevance.”
509 U.S. at 591, 113 S.Ct. 2786. “Expert
testimony which does not relate to any issue in the case is
not relevant and, ergo, non-helpful.”
Id. (citation
omitted). Or, as we have said, “[t]he issue with regard to
expert testimony is not the qualifications of a witness in
the abstract, but whether those qualifications provide a
foundation for a witness to answer a specific question.”
Berry v. City of Detroit, 25 F.3d 1342, 1351 (6th Cir.
1994). Whether an opinion “relates to an issue in the
case” or helps a jury answer a “specific question” depends
on the claims before the court. Thus, when analyzing the
relevancy of expert testimony, a court should consider the
elements that a plaintiff must prove.
Here, the Madejs argue that the district court focused on
irrelevant causation standards from state tort law, not on
the standards for their federal statutory claims. They have
a point. The court said things like the following: “In cases
involving exposure to toxic substances, the plaintiff ‘must
establish both general and specific causation through
proof that the toxic substance is capable of causing, and
did cause, the plaintiff’s alleged injury.’ ” Madej v.
Maiden, No. 2:16-cv-658, 2018 WL 5045768, at *4 (S.D.
Ohio Oct. 17, 2018) (quoting
Pluck v. BP Oil Pipeline
Co., 640 F.3d 671, 676–77 (6th Cir. 2011)). But
Pluck
and other cited cases addressed tort claims. E.g.,
Pluck, 640 F.3d at 674–77. This is not a toxic-tort
case. It involves claims under the Fair Housing
Amendments Act and the Americans with Disabilities
Act.
Ultimately, though, the Madejs’ argument that the district
court wrongly relied on toxic-tort cases does them no
good. When we turn to the federal statutes on which they
rely, we are not even sure that the Madejs have stated
cognizable claims. At the least, these statutes require the
Madejs to show that the use of chip seal on Dutch Creek
Road will cause Ms. Madej harm. In the end, then, the
district court properly asked whether the doctors’
opinions were reliable enough to help answer this
causation question for these federal claims. See
Berry,
25 F.3d at 1351.

A. Relevancy
[5] [6]

Rule 702’s first condition requires that an “expert’s
scientific, technical, or other specialized knowledge will
help the trier of fact to understand the evidence or to
determine a fact in issue.” Fed. R. Evid. 702(a).
Daubert tells us that “[t]his condition goes primarily to

1. Fair Housing Amendments Act. The Madejs allege that
the county engineer violated the Fair Housing
Amendments Act by rejecting their proposed “reasonable
accommodation”: using alternatives to chip seal that do
not contain asphalt. This Act “amended the Fair Housing
Act to bar housing discrimination against the
handicapped.” Davis v. Echo Valley Condo. Ass’n, 945

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Madej v. Maiden, 951 F.3d 364 (2020)

F.3d 483, 489 (6th Cir. 2019) (citing

42 U.S.C. §

3604(f)).
Section 3604(f) makes it unlawful “[t]o
discriminate against any person ... in the provision of
services or facilities in connection with [a] dwelling,
because of a handicap of” that person.
42 U.S.C. §
3604(f)(2)(A). It defines *371 “discrimination” to include
“a refusal to make reasonable accommodations in rules,
policies,
practices,
or
services,
when
such
accommodations may be necessary to afford such person
equal opportunity to use and enjoy a dwelling.”
Id. §
3604(f)(3)(B).

(4th Cir. 2011).
Here too, it is not obvious that roadwork on Dutch Creek
Road amounts to a “provision of services” “in connection
with” the Madejs’ home.
42 U.S.C. § 3604(f)(2);
compare Bullock v. City of Covington, No. 16-56-HRW,
2016 WL 6694486, at *6 (E.D. Ky. Nov. 14, 2016), aff’d
698 F. App’x 305 (6th Cir. 2017), with Vance v. City of
Maumee, 960 F. Supp. 2d 720, 732–33 (N.D. Ohio 2013).
Yet the county engineer did not raise this argument on
appeal, so we merely flag it for future cases, lest our
opinion be taken as impliedly accepting the validity of the
Madejs’ claim.

[7]

Before deciding if the Madejs’ claim requires them to
prove any type of causation, we must express uncertainty
over whether the claim even falls within the Act. As its
name implies, the Fair Housing Amendments Act does
not bar discrimination in all services; it bars
discrimination in the “provision of services or facilities in
connection with [a] dwelling.”
Id. § 3604(f)(2)
(emphasis added). In other contexts, the Supreme Court
has viewed the phrase “in connection with” as “essentially
‘indeterminat[e]’ because connections, like relations,
‘stop nowhere.’ ”
Maracich v. Spears, 570 U.S. 48,
59, 133 S.Ct. 2191, 186 L.Ed.2d 275 (2013) (citation
omitted). The Court has thus told us to read this relational
text as adopting the “limiting principle” most “consistent
with the structure of the” statute.
Maracich, 570 U.S.
at 60, 133 S.Ct. 2191; see also
Chadbourne & Parke
LLP v. Troice, 571 U.S. 377, 387–88, 134 S.Ct. 1058, 188
L.Ed.2d 88 (2014).
Lower courts have done just that in this housing context.
They have refused to extend the Fair Housing Act “to any
and every municipal policy or service that touches the
lives of residents” because that view would “expand that
Act into a civil rights statute of general applicability
rather than one dealing with the specific problems of fair
housing opportunities.” Ga. State Conference of the
NAACP v. City of LaGrange, 940 F.3d 627, 633 (11th Cir.
2019) (citation omitted). The Fourth Circuit, for example,
rejected a claim that public agencies violated another
subsection,
42 U.S.C. § 3604(b), when selecting a new
highway’s path.
Jersey Heights Neighborhood Ass’n
v. Glendening, 174 F.3d 180, 192–94 (4th Cir. 1999). The
court reasoned that treating the highway siting as a
“housing ‘service’ ” was a “strained interpretation of the
word.”
Id. at 193 (citation omitted); see also
A
Soc’y Without a Name v. Virginia, 655 F.3d 342, 349–50

Even if the Act applies, the Madejs still must show that
their “accommodation” (a chip-seal alternative that does
not use asphalt) is “necessary to afford [Ms. Madej] equal
opportunity to use and enjoy” her home.
42 U.S.C. §
3604(f)(3)(B). We have noted that this “necessity
element” mandates “a causation inquiry that examines
whether the requested accommodation or modification
would redress injuries that otherwise would prevent a
disabled resident from receiving the same enjoyment from
the property as a non-disabled person would receive.”
Hollis v. Chestnut Bend Homeowners Ass’n, 760 F.3d
531, 541 (6th Cir. 2014). In other words, “[n]ecessity
functions as a but-for causation requirement, tying the
needed accommodation to equal housing opportunity.”
Vorchheimer v. Philadelphian Owners Ass’n, 903 F.3d
100, 110 (3d Cir. 2018).
[8]

In this case, if the asphalt in chip seal would not cause
Ms. Madej’s negative reactions, the Madejs could not
show that *372 the roadwork would create an unequal
opportunity for her to enjoy her home. Without that causal
connection, the Madejs’ proposed alternatives would also
not be necessary (that is, “ ‘indispensable,’ ‘essential,’
something that ‘cannot be done without’ ”) to redress
what turned out to be non-existent harms. Davis, 945 F.3d
at 490 (quoting Cinnamon Hills Youth Crisis Ctr. v. St.
George City, 685 F.3d 917, 923 (10th Cir. 2012)).
2. Americans with Disabilities Act. The Madejs also
allege that the county engineer violated the Americans
with Disabilities Act by refusing their same proposed
“reasonable modification”: using alternatives to chip seal
that do not contain asphalt. Their textual support for this
theory has been a moving target. The Americans with
Disabilities Act forbids disability discrimination in
employment (Title I), public services (Title II), and public

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Madej v. Maiden, 951 F.3d 364 (2020)

accommodations (Title III). The complaint alleged that
the use of chip seal violated Title III’s
reasonable-modification rules for public accommodations.
42 U.S.C. § 12182(b)(2)(A)(ii). But the Act defines
“public accommodation” to cover “private entities,” not
public entities. Id. § 12181(7);
Sandison v. Mich. High
Sch. Athletic Ass’n, Inc., 64 F.3d 1026, 1036 (6th Cir.
1995). When the county engineer made this point in the
district court, the Madejs switched to Title II. On appeal,
however, they do not tell us the title on which they rely.
We assume they mean to invoke Title II.

by any such entity.” We have read even the “subjected to
discrimination” text to require discrimination that
“relate[s] to services, programs, or activities” of a public
entity.
Johnson v. City of Saline, 151 F.3d 564, 569
(6th Cir. 1998); cf.
Brumfield v. City of Chicago, 735
F.3d 619, 627–29 (7th Cir. 2013). And we have
distinguished the *373 “services, programs, or activities”
covered by
§ 12132 from the noncovered “facilities”
in which they are conducted.
Babcock v. Michigan,
812 F.3d 531, 535–40 (6th Cir. 2016).

Title II provides that “no qualified individual with a
disability shall, by reason of such disability, be excluded
from participation in or be denied the benefits of the
services, programs, or activities of a public entity, or be
subjected to discrimination by any such entity.”
42
U.S.C. § 12132. Unlike Title III or the Fair Housing
Amendments Act, Title II does not expressly define
“discrimination” to include a refusal to make a reasonable
accommodation for a person with a disability (in addition
to intentional discrimination).
Wis. Cmty. Servs. v.
City of Milwaukee, 465 F.3d 737, 750 (7th Cir. 2006) (en
banc). The Attorney General has instead passed a
regulation imposing that mandate: “A public entity shall
make reasonable modifications in policies, practices, or
procedures when the modifications are necessary to avoid
discrimination on the basis of disability, unless the public
entity can demonstrate that making the modifications
would fundamentally alter the nature of the service,
program, or activity.”
28 C.F.R. § 35.130(b)(7)(i).

How does this caselaw play out here? It is debatable. The
Madejs primarily allege that the use of chip seal will deny
Ms. Madej the benefits of her home, but her private
dwelling is not a “service, program, or activity” of a
public entity. When questioned on this point at argument,
counsel responded that the roadwork qualifies as a
“service” and that the use of chip seal would deny Ms.
Madej the “benefit” of the road. Those theories, too, raise
difficult interpretive questions.
Babcock holds that
“facilities” (in contrast to “services, programs, or
activities”) generally are not covered by
§ 12132,
812 F.3d at 535–40, and regulations define “facility”

Like the Attorney General, we have read
§ 12132 to
cover “claims for a reasonable accommodation.”
Roell
v. Hamilton County, 870 F.3d 471, 488 (6th Cir. 2017).
Yet we have also said that a Title II “plaintiff must show
that the defendants intentionally discriminated against
him because of his disability.”
Smith v. City of Troy,
874 F.3d 938, 947 (6th Cir. 2017). We need not reconcile
these cases here, as the county engineer does not
challenge the reasonable-modification regulation under
the statute. So we take as a given that “discrimination”
includes a failure to accommodate.
Even so, it is not clear how the Madejs’ claim fits within
Title II.
Section 12132 indicates that no “qualified
individual with a disability” shall “by reason of such
disability” (1) “be excluded from participation in or be
denied the benefits of the services, programs, or activities
of a public entity,” or (2) “be subjected to discrimination

to include “roads,” 28 C.F.R. § 35.104. But
Babcock
involved the “design features in a building” and suggested
that those facts might distinguish it from a case that found
a transportation facility (a sidewalk) covered.
812 F.3d
at 538 n.5 (discussing
Frame v. City of Arlington, 657
F.3d 215, 221 (5th Cir. 2011) (en banc)). The
Babcock
plaintiff also did not argue (as the Madejs suggested here)
that the construction of a facility can itself qualify as a
“service.”
Id. Because the county engineer raised none
of these issues on appeal, we again merely flag them for
future cases and will assume that Title II extends to the
denial of the benefits of Dutch Creek Road.
[9]
Nevertheless, the Madejs’ claim again requires proof of
causation.
The
regulation
compels
reasonable
modifications “when the modifications are necessary to
avoid discrimination on the basis of disability.”
28
C.F.R. § 35.130(b)(7)(i) (emphasis added). Like the Fair
Housing Amendments Act’s text, this text “links necessity
to a causation inquiry,” albeit one with a different object.
Wis. Cmty. Servs., 465 F.3d at 752. While the Fair
Housing Amendments Act asks whether an
accommodation is needed for an “equal opportunity” to
enjoy a home,
42 U.S.C. § 3604(f)(3)(B), the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Madej v. Maiden, 951 F.3d 364 (2020)

regulation asks whether the modification is needed “to
avoid discrimination on the basis of disability,”
28
C.F.R. 35.130(b)(7)(i). Given our prior assumptions, we
read this text to be satisfied in this case if a plaintiff
“show[s] that, ‘but for’ [her] disability, [she] would have
been able to access the services or benefits desired.”
Wis. Cmty. Servs., 465 F.3d at 752. Here, then, if the
asphalt in chip seal would not cause Ms. Madej’s
reactions, the Madejs could not show that the chip seal
would deny her access to the road. Without that causal
connection, the Madejs’ proposed modifications would
not be necessary “to avoid” that non-existent denial of
access.
***
In sum, while the Madejs are correct that these laws do
not codify a toxic-tort regime, the laws require proof of
causation all the same. This conclusion—that the Madejs
must prove that the chip seal will cause Ms. Madej
harm—leads to one final question: Did the district court
correctly hold that they needed expert causation testimony
to survive summary judgment? See Madej, 2018 WL
5045768, at *14. Courts have been unclear about whether
this question raises a matter of substance (and so depends
on the meaning of the federal laws) or a matter of
procedure (and so depends on the meaning of Federal
Rule of Civil Procedure 56). Cf.
Erie Railroad Co. v.
Tompkins, 304 U.S. 64, 58 S.Ct. 817, 82 L.Ed. 1188
(1938).
On the one hand, some cases seem to treat this question as
substantive by asking whether the plaintiff’s claim should
be read to require expert testimony. When considering
tort suits under our diversity *374 jurisdiction, for
example, we have held that a party needs expert causation
testimony if a state supreme court has imposed that
mandate on its courts. Vaughn v. Konecranes, Inc., 642 F.
App’x 568, 578 (6th Cir. 2016);
Pluck, 640 F.3d at
677;
Kolesar v. United Agri Prods., Inc., 246 F. App’x
977, 981–82 (6th Cir. 2007). While these cases overlook
this initial process-versus-substance question, other courts
that have addressed the question have likewise found it
substantive. See
Wallace v. McGlothan, 606 F.3d 410,
419 (7th Cir. 2010); In re Lipitor (Atorvastatin Calcium)
Mktg., Sales Practices & Prods. Liab. Litig., 227 F. Supp.
3d 452, 467–69 (D.S.C. 2017), aff’d
892 F.3d 624,
646 (4th Cir. 2018). Under this view, whether the Madejs
need expert causation evidence would turn on our
interpretation of their two federal claims.

On the other hand, none of these cases accounts for
Shady Grove Orthopedic Associates, P.A. v. Allstate
Ins. Co., 559 U.S. 393, 130 S.Ct. 1431, 176 L.Ed.2d 311
(2010). That decision directs courts to consider “whether
the Federal Rules of Civil Procedure answer the question
in dispute” before analyzing anything else. Gallivan v.
United States, 943 F.3d 291, 293 (6th Cir. 2019). And
Rule 56 does have something to say on a question about
the evidence needed to create a fact issue for trial. Cf.
McEwen v. Delta Air Lines, Inc., 919 F.2d 58, 60 (7th
Cir. 1990). After all, it says that “[t]he court shall grant
summary judgment if the movant shows that there is no
genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). Under this view, the requirement that the Madejs
offer expert causation evidence would turn on whether
only that kind of evidence can create a factual dispute that
we would consider “genuine” under Rule 56.
We leave this issue for another day too. The Madejs’
counsel conceded at oral argument that they do not
challenge the district court’s ruling that they need expert
testimony on causation to survive summary judgment. If
the court properly found their experts unreliable, it
correctly granted summary judgment on their federal
claims. We end with that reliability ruling.

B. Reliability
[10]

Two general factors (one about the standard of review,
the other about precedent) show that the Madejs face a
daunting task in challenging the district court’s
conclusion that their three doctors provided unreliable
opinions under Federal Rule of Evidence 702. Start with
the standard of review. District courts have “considerable
leeway in deciding in a particular case how to go about
determining whether particular expert testimony is
reliable,”
Kumho Tire, 526 U.S. at 152, 119 S.Ct.
1167, and so we will review that type of decision only for
an abuse of discretion,
Nelson v. Tenn. Gas Pipeline
Co., 243 F.3d 244, 248 (6th Cir. 2001). This deferential
standard makes sense because
Daubert establishes a
“flexible” test that considers many indicia of reliability,
some of which may have more relevance than others
depending on the particular science and the particular

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Madej v. Maiden, 951 F.3d 364 (2020)

scientist before the court.
150, 119 S.Ct. 1167 (quoting
594, 113 S.Ct. 2786).

Kumho Tire, 526 U.S. at
Daubert, 509 U.S. at

[11]

Turn to precedent. The Madejs’ doctors based their
opinions that asphalt would harm Ms. Madej in large part
on their views that she suffers from multiple chemical
sensitivity. Many courts have held that similar expert
testimony did not pass muster under Rule 702. As the
Tenth Circuit noted, multiple chemical sensitivity “is a
controversial diagnosis that has been excluded under
Daubert as unsupported by sound scientific reasoning
or methodology.” *375
Summers v. Mo. Pac. R.R.
Sys., 132 F.3d 599, 603 (10th Cir. 1997); see, e.g.,
Bradley v. Brown, 42 F.3d 434, 438 (7th Cir. 1994);
Snyman v. W.A. Baum Co., No. 04 Civ. 2709, 2008 WL
5337075, at *1 (S.D.N.Y. Dec. 22, 2008), aff’d 360 F.
App’x 251 (2d Cir. 2010); Gabbard v. Linn-Benton Hous.
Auth., 219 F. Supp. 2d 1130, 1134 (D. Or. 2002), aff’d
sub nom. Wroncy v. Ore. Dep’t of Transp., 94 F. App’x
559 (9th Cir. 2004); Comber v. Prologue, No. 99-2637,
2000 WL 1481300, at *4–5 (D. Md. Sept. 28, 2000);
Coffey v. Cty. of Hennepin, 23 F. Supp. 2d 1081, 1086
(D. Minn. 1998); Zwillinger v. Garfield Slope Hous.
Corp., No. CV 94–4009, 1998 WL 623589, at *21–22
(E.D.N.Y. Aug. 17, 1998); Coffin v. Orkin Exterminating
Co., Inc., 20 F. Supp. 2d 107, 110–11 (D. Me. 1998);
Frank v. State of New York, 972 F. Supp. 130, 133–37
(N.D.N.Y. 1997);
Sanderson v. Int’l Flavors and
Fragrances Inc., 950 F. Supp. 981, 1001–02 (C.D. Cal.
1996); see also Kuxhausen v. Tillman Partners, L.P., 40
Kan.App.2d 930, 197 P.3d 859, 862–68 (2008), aff’d
291 Kan. 314, 241 P.3d 75 (2010).
To prevail, therefore, the Madejs must establish that the
district court abused its discretion by declining to shun a
mountain of precedent. That is a tall order. To be sure,
most of these cases are over a decade old. That could be
significant because “[s]cientific conclusions are subject to
perpetual revision.”
Daubert, 509 U.S. at 597, 113
S.Ct. 2786. But “[l]aw lags science; it does not lead it.”
Tamraz v. Lincoln Elec. Co., 620 F.3d 665, 674 (6th
Cir. 2010) (citation omitted). And the Madejs have not
shown that more recent scientific advancements have led
the scientific community to come to accept a
multiple-chemical-sensitivity diagnosis, one of the
relevant reliability factors. See
Kumho, 526 U.S. at
150, 119 S.Ct. 1167. Instead, their own doctors

acknowledged that the diagnosis remains unrecognized by
the American Medical Association and unlisted in the
World Health Organization’s International Classification
of Diseases. Madej, 2018 WL 5045768, at *9.
Reviewing the district court’s decision against this
general backdrop, we find no reversible error in its
exclusion of the opinions of the Madejs’ three experts on
more fact-specific grounds.
1. Dr. Molot. We begin with Dr. John Molot, the Madejs’
expert. The district court could reasonably conclude that
his causation opinion was not “based upon sufficient facts
or data” or the “product of reliable principles and methods
... applied ... reliably to the facts of the case.”
Tamraz,
620 F.3d at 670 (quoting Fed. R. Evid. 702(b)–(d)); see
Madej, 2018 WL 5045768, at *5–8. Courts have
repeatedly found opinions unreliable when they were
based more on an expert’s “subjective belief” than on an
objective method that can be tested.
Tamraz, 620 F.3d
at 670 (quoting
Daubert, 509 U.S. at 590, 113 S.Ct.
2786); see, e.g.,
Nelson, 243 F.3d at 254;
Rosen v.
Ciba-Geigy Corp., 78 F.3d 316, 318 (7th Cir. 1996). As
we have said, “[t]he ‘ipse dixit of the expert’ alone is not
sufficient to permit the admission of an opinion.”
Tamraz, 620 F.3d at 671 (citation omitted).
Dr. Molot’s opinion shares this defect. He opined that
asphalt would cause Ms. Madej to suffer harmful
reactions. When asked to list the chemicals that cause
those reactions, however, he responded: “I have no idea,
because there’s no way to test it. We can’t test. And I get
asked that question, well, which chemicals is it exactly,
do you think? Nobody knows, including me.” He thus did
not observe Ms. Madej display any sensitivity to asphalt
because he did not conduct any objective tests. Instead, he
reaches his opinions about the chemicals causing a
patient’s harmful reactions based “[o]nly from the history
of what the patient *376 identifies”; that is, his opinions
rest “strictly on a subjective criteria of history and
reported symptoms.” He also conceded that he controls
for the possibility that other chemicals might be the true
root of a patient’s reactions based on the patient’s own
self-reporting: “How do you control for that? You know,
patients make their observations based on, I smelled this
and it makes me sick. And that’s all we have.”
Dr. Molot’s reliance on Ms. Madej’s opinions gave the
district court an adequate ground to find that he did not
“reliably rule out” non-asphalt causes for her sensitivities.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Madej v. Maiden, 951 F.3d 364 (2020)

Tamraz, 620 F.3d at 674. Indeed, “lay speculations on
medical causality, however plausible, are a perilous basis
for inferring causality.”
Rosen, 78 F.3d at 318. But
that sort of speculation appears to undergird Dr. Molot’s
opinion here. Not only that, the Madejs identify nothing
suggesting that the relevant scientific community would
accept this subjective method of proving causation “in
their professional work.”
Id. So they failed to show
that the “methodology underlying [Dr. Molot’s] testimony
is scientifically valid.”
Daubert, 509 U.S. at 592–93,
113 S.Ct. 2786; cf.
Summers, 132 F.3d at 604.
2. Dr. Lieberman. We next turn to Dr. Allan Lieberman,
the environmental-medicine specialist who treated Ms.
Madej from his clinic in Charleston, South Carolina. The
district court could reject Dr. Lieberman’s opinion that
asphalt (as opposed to other items) would cause Ms.
Madej’s sensitivities for the same reasons that it rejected
Dr. Molot’s opinion. Madej, 2018 WL 5045768, at
*10–14. Despite being Ms. Madej’s treating physician for
many years, Dr. Lieberman is not even sure he ever met
her in person. She visited his center one time in 1999 and
was seen by another doctor. Id. at *10. Instead, Dr.
Lieberman treated Ms. Madej only over the phone. So, for
the most part, Dr. Lieberman (like Dr. Molot) relied
primarily on Ms. Madej’s self-reporting to form his
opinion concerning her sensitivities. What we have said
about Dr. Molot’s opinion thus fully applies to Dr.
Lieberman’s opinion too, with one exception.
The exception: At the initial 1999 visit, Dr. Lieberman’s
colleague conducted a test of Ms. Madej, and she reacted
when he “plac[ed] a substance he described as ‘petroleum
derived ethanol’ under her tongue.” Madej, 2018 WL
5045768, at *10. Yet Dr. Molot opined that “testing for
sensitivity using sublingual challenges” (under the
tongue) “has not been documented as reliable for the
diagnosis of chemical sensitivity.” And Dr. Lieberman
himself admitted that it was possible that those test results
would change over time. So the district court could
reasonably conclude that this decades-old test did not fill
in the gap in the doctors’ causation testimony.

doctor’s opinion “strays from” the doctor’s “professional
experience,” the opinion is “less reliable, and more likely
to be excluded under Rule 702.”
Gass, 558 F.3d at
427–28; United States v. Farrad, 895 F.3d 859, 884 (6th
Cir. 2018). Dr. Singer’s opinion fits that bill. As a
primary-care physician, she conceded that “it’s not my
skill set to diagnose” multiple chemical sensitivity and
that she does not “know the criteria for diagnosing” that
trait. When asked if she tested Ms. Madej for sensitivity
to asphalt, she responded: “I don’t even know where we
begin with that, if there *377 are tests that are accurate for
that. That’s again in that chemical sensitivity specialty
that I don’t have.” Instead, she formed her opinion that
asphalt would harm Ms. Madej only “[b]ecause she had
the diagnosis of multiple chemical sensitivity from Dr.
Lieberman.” Yet Dr. Lieberman did not actually diagnose
“multiple chemical sensitivity.” Unlike Dr. Molot, he
does not view that phrase as a “diagnosis” since it is not a
recognized disease. Instead, he calls it “a wonderful
description of what the patients have” just as “headache”
and “muscle pain” describe the pain that patients feel. So
Dr. Singer’s opinion rested not only on another doctor’s
views, but also on an apparent misunderstanding of those
views.
***
All told, the district court did not abuse its discretion in
finding the opinions of these doctors inadmissible.
Because the Madejs do not challenge the need for expert
causation testimony, the absence of that evidence compels
summary judgment for the Athens County Engineer. That
said, we second the district court’s hope that the county
engineer will give the Madejs “notice far in advance of
road work.” Madej, 2018 WL 5045768, at *16. But that is
all we can do. Our task is solely to answer the legal
questions arising out of the parties’ dispute. The policy
questions about how best to reconcile the needs of the
residents who travel Dutch Creek Road with the needs of
Cynthia Madej are for the county engineer and the local
community to whom he answers.
We affirm.

[12] [13]

3. Dr. Singer. That leaves Dr. Barbara Singer, Ms.
Madej’s primary-care physician. The district court did not
abuse its discretion in finding her opinion unreliable
because her “qualifications” did not “provide a foundation
... to answer” this causation question.
Berry, 25 F.3d at
1351; Madej, 2018 WL 5045768, at *8–10. When a

All Citations
951 F.3d 364

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Madej v. Maiden, 951 F.3d 364 (2020)

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

